                       OFFICE OF THE INSPECTOR GENERAL
                        CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE




                                Audit of Controls Over
                 the Corporation for National and Community Service's
                   Key Performance Indicators and Accomplishment
                                       Statistics


                             OIG Audit Report Number 0 1-28
                                     May 18,2001




                                        Prepared by:

                                      KPMG LLP
                                   2001 M Street N.W.
                                  Washington, DC 20036


                          Under GSA Contract No.GS-23F-8 127H
                          CNS OIG Task Order No. 200008020002




This report was issued to Corporation management on August 2, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than January 29, 2002, and complete its
corrective actions by August 2, 2001. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                     CORPORATION
                                Office of Inspector General
                      Corporation for National and Community Service                 FOR NATIONAL
                                    Audit Report 01-28

                                Audit of Controls Over
                 the Corporation for National and Community Service's
                Key Performance Indicators and Accomplishment Statistics



OIG Introduction

CNS OIG engaged KPMG LLP to assess the internal controls related to the existence and
completeness of key indicator and accomplishment statistics included in the Corporation for
National Service's Fiscal 2000 Performance Report. This report presents the results of that
audit. Overall, KPMG concluded that the Corporation's key internal controls over the
performance information need improvement. Their audit revealed, among other findings,
that the Corporation lacks policies and procedures to assure that the statistics in its
Performance Report are accurately compiled and reported and does not require that the data
is reviewed at its point of origin. The report contains 19 specific recommendations to
improve the controls, the performance data, and the resulting report.

CNS OIG participated in the development of the scope and methodology for this audit and
reviewed the report and the supporting work papers to assure its compliance with
Government Auditing Standards. In accordance with those standards, we provided a draft of
the report to the Corporation management for their review and comment.

The Corporation's response is included in its entirety in Appendix IV. As discussed on page
3 of the report and in greater detail in Appendix IV, the response distorts the report's overall
conclusion. It also indicates that Corporation management disagrees with certain of the
findings and recommendations. Both KPMG and OIG considered the response; however,
other than to deal with the Corporation's response, we made no substantive changes to the
report. CNS OIG concurs with KPMG's conclusions and recommendations, and we believe
that the report's recommendations, if properly implemented, would result in significant
improvements in the controls over the Corporation's performance information.




                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, DC 20525
                                                  Table of Contents

RESULTS IN BRIEF ........................................................................................................... 2

BACKGROUND .................................................................................................................
                                                                                                                         4

FINDINGS AND RECOMMENDATIONS

   Finding 1: Lack of written policies and procedures ...................................................... 5

   Finding 2: Undocumented certification process ............................................................ 7

   Finding 3: Inadequate data validation ........................................................................... 7

   Finding 4: Lack of guidance for data validation during site visits ...............................8

   Finding 5: Aguirre International ...............................................................8
                     Lack of formal compilation and reporting policies and procedures
                     Data collected for more than 500 accomplishments
                     Lack of documented evidence of contractor oversight

   Finding 6: Broadly stated key performance indicators and accomplishment statistics
              that are not clearly defined ........................................................................ 1

   Finding 7: Lack of state office involvement in the performance reporting process ...12

   Finding 8 : AmeriCorps State and National .................................................. 12
                     Lack of distinction between reported levels of effort
                     Projects were not advised of accomplishment statistics compilation
                     requirements at the beginning of the project

    Finding 9: AmeriCorps NCCC: Project service completion reports not signed .......13

    Finding 10: National Senior Service Corps: Incomplete presentation of data ............ 14

    Finding 11: Learn and Serve America: Unreliable key performance indicators and
                accomplishment statistics ........................................................................... 14

APPENDIX I: KEY PERFORMANCE INDICATORS AND ACCOMPLISHMENT
STATISTICS SELECTED FOR CONTROL TESTING ........................................... .A. 1

APPENDIX 11: OBJECTIVES. SCOPE & METHODOLOGY ....................................A . 2

 APPENDIX 111: PERFORMANCE MEASURES COMPILATION PROCESSES .....A . 5

 APPENDIX IV: CORPORATION RESPONSE & KPMG COMMENTS ON SPECIFIC
 ITEMS NOTED IN THE CORPORATION'S RESPONSE ............................... A . 8
            2001 M Street, N.W.
            Washington, D.C. 20036




May 18,2001


Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP audited the Corporation for National and Community
Service's controls over the existence and completeness of certain performance statistic
indicators reported in its Fiscal 2000 Performance Report. The Performance Report
includes "key indicators" with corresponding goals and the results related to such goals
as well as accomplishment statistics and outcomes. The key indicators are, for the most
part, compiled from databases that the Corporation maintains. Corporation staff compiled
accomplishment statistics for the AmeriCorps National Civilian Community Corps. A
contractor, Aguirre International, compiles accomplishment statistics fi-om surveys sent
to programs and their project participants for AmeriCorps State and National,
AmeriCorps VISTA and National Senior Service Corps. The outcomes are compiled
fi-omthe results of program evaluations conducted by various Corporation contractors.

Our audit objectives were (1) to obtain an understanding of, and document, the
components of internal control related to the existence and completeness of the
Corporation's performance measures and (2) to determine whether controls have been
placed in operation and assess their effectiveness. The audit was performed in
accordance with Government Auditing Standards and considered the requirements for
assessing the internal control of performance measurement data, as established in OMB
Bulletin No. 01-02, Audit Requirements for Financial Statements. This audit was
performed separately fi-om the audit of the Corporation's financial statements because the
Corporation does not include performance measures in its financial reports; instead, the
Corporation issues its performance information as a separate Performance Report.

As described in Appendix 11, our audit scope was limited to testing controls over a
sample of the Fiscal 2000 Performance Report's key indicators and accomplishment
statistics. When selecting certain key indicators and accomplishment statistics for
testing, we considered those statistics that were related to the Corporation's largest
programs, as well as the risks associated with compiling reasonably accurate performance
information. We did not test controls over the outcome information because the program
evaluation process was not within the scope of our audit.




1111          KPMG LLP KPMG LLP a U S lhmlted Ihabllity partnership. I S
              a member of KPMG lnternaronal, a Swiss assoclatlon
Results in Brief

Based on the results of the limited procedures we performed, we concluded that the
Corporation's key controls over the existence and completeness of key performance
indicators and accomplishment statistics need improvement. Overall:

        The Corporation did not have comprehensive policies and procedures in
        place to assure the statistics in its Fiscal 2000 Performance Report were
        accurately compiled and reported.

        The Corporation's data validation process, as described in the appendix of its
        Fiscal 2000 Performance Report, did not include a review of a representative
        sample of supporting source documentation at the point of origin.

        Corporation State Offices - The state office staff, who have the most
        knowledge of the programs in their respective states and have direct
        interaction with the projects or stations, were not involved, when
        appropriate, in the performance statistic reporting process related to the
        programs for which they are responsible - AmeriCorps VISTA and National
        Senior Service Corps.

        National Senior Service Corps - The Corporation could not verify that all
        National Senior Service Corps RSVP stations were included in the survey
        for RSVP accomplishments conducted by Aguirre International because the
        Corporation does not believe the projects provided a complete listing of
        stations.

        Learn and Serve America - The Corporation assessed the data used to
        compile key performance indicators and accomplishment statistics as having
        a lower level of accuracy than other systems used by the Corporation. The
        Fiscal 2000 Performance Report does not indicate that these statistics may
        not be based on exact numbers unless one reads the report's Appendix A:
        Data Quality.

For the 12 key indicators out of a population of 50 that we tested, as presented in
Appendix I, we determined that eleven were reasonably accurate. The exception was the
Learn and Serve America key indicator. For each indicator in Appendix I that originated
from a Corporation database, we reviewed the text (data query language) of the
programming commands used to extract and summarize the required data from the
respective database. Based on our review, we concluded that the programming
commands produced the reports used to develop the performance indicators.

However, with the exception of the VISTA key performance indicator, KPMG did not
conduct audit procedures on the underlying data of the respective databases, nor did we
extrapolate the results of our procedures to the rest of the other 38 indicators, because:
WM
   To the extent the source of the other 38 key indicators was a database, our review
   of data queries and the compilation process was limited to the 11 key indicators
   we tested (1 of the 12 key indicators we tested, the Learn and Serve America
   indicator, was not generated from a database).

   Additionally, if the source of the key indicator was not a database, (such as
   periodic progress reports received by the Corporation and reports issued by
   another entity), we did not review the process and did not review the
   Corporation's supporting documentation. Accordingly, we can only provide
   conclusions based on the 12 key indicators tested.

We also concluded that the accomplishment statistic tested in Appendix I for AmeriCorps
NCCC relating to the number of trees or shrubs planted appears to be reasonably
accurate.

The section below entitled Findings and Recommendations describes in further detail the
internal control weaknesses presented above and addresses additional issues noted during
the audit. We have provided a draft of this report to the Corporation. The Corporation's
responses to our findings and recommendations and our comments on the Corporation's
responses are included as Appendix IV. In its response, the Corporation has
mischaracterized the results of our audit by stating:

   "Overall, the report's characterization that our data are accurate, that our procedures
    are replicable.. ..are findings that we are pleased to share with Congress and the
    American people."

    "The audit report finds that the Corporation's performance indicators are
     'reasonably accurate. "'

Our conclusion that data is "accurate" or "reasonably accurate" relates only to our
assessment of the database controls and their effect on the accuracy of the performance
information contained within the 12 key indicators tested. In contrast, with the exception
of the VISTA key performance indicator, we did not test the controls over the database
input, much of which was compiled from various sources outside the Corporation.
Therefore, we cannot determine the accuracy or completeness of the raw data used to
compile the performance statistics. In addition, we cannot extrapolate the results of our
procedures to the rest of the other 38 indicators. Accordingly, we can only conclude on
the 12 key indicators tested.

Additionally, the Corporation, in its response, did not concur with certain
recommendations. We believe that we have reached the correct conclusions based on the
results of our audit and representations made by the Corporation. No substantive changes
were made to this audit report as a result of the Corporation's response to our draft audit
report. We continue to believe our recommendations presented in the Findings and
Recommendations section of this report, if implemented, will result in improvements to
internal controls over the compilation and reporting of performance statistics.
Background

The Corporation uses Government Performance and Results Act of 1993 (GPRA), Public
Law 103-62, as the legislative framework to set strategic goals, measure performance,
and report the extent to which goals were met. GPRA requires federal agencies to
develop strategic plans that include the agency's mission statement, long-term strategic
goals and how the agency plans to achieve those goals with its resources. The
Corporation submits an annual performance plan to the Office of Management and
Budget (OMB). The performance plan provides a link between the Corporation's
strategic goals and manager and employee activities. The plan sets forth the
Corporation's annual performance goals and identifies the key performance indicators
and accomplishment statistics that the Corporation will use to assess its progress.

The Corporation, pursuant to GPRA, prepares an annual report on program performance.
In its Fiscal 2000 Performance Report, the Corporation compared its actual FY 2000
performance to its goals. The Corporation reported 50 key indicators with 50
corresponding goals, 76 accomplishments, and 49 outcomes. To the extent a goal was
not met, the Corporation provided an explanation of why the goal was not met and what
its plans were for meeting the goals in the future.

Although not required by GPRA, the Corporation also reported selected samples of its
accomplishment statistics. The accomplishment statistics are generally intermediate
outcomes of the activities of a given program. No goals are set for the accomplishments;
therefore, no comparisons are made between the accomplishments and their expected
results. Accomplishment reports are prepared annually for AmeriCorps State and
National, AmeriCorps VISTA, AmeriCorps NCCC and the National Senior Service
Corps.

The Corporation also reported end outcomes for its programs in the Fiscal 2000
Performance Report. For instance, the FY 2000 AmeriCorps tutoring program's end
outcome is described in the report as 'students participating in AmeriCorps tutoring
programs improved their reading performance from pre-test to post-test more than the
gain expected for the typical child at their grade level'. The end outcomes of
Corporation's programs are generally established by independent program evaluation
studies.

The Corporation also reported performance information in its testimonies to Congress
and included performance information when it prepared a document designed to inform
the new Administration about the Corporation's program and objectives, titled
'Transition Briefing Book' (November 2000). The document presents a brief synopsis of
the mission, programs and selected accomplishments of the Corporation's programs.

This report is intended solely for the information and use of the Office of the Inspector
General, the management of the Corporation for National and Community Service, and
the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.
Findings and Recommendations

Key Performance Indicators and Accomplishment Statistics Compilation and
Reporting

1. Lack of written policies and procedures

A sound internal control environment for compiling and reporting key performance
indicators and accomplishment statistics includes written policies and procedures that
explicitly describe:

        Personnel accountable for compiling the performance statistics at
        headquarters and field offices as well as contractors, if any;
        Defined roles of personnel who will compile and review the key
        performance indicators and accomplishment statistics;
        Methodology for the review of the key performance indicators and
        accomplishment statistics;
        The type and degree of data validation at headquarters, field offices and
        project or station sites;
        Certification of reported data by responsible personnel;
        Planned timeline of the compilation and reporting process; and
        Policies for retention of supporting documentation.

Although the Corporation's headquarters has issued data calls to compile key
performance indicators and accomplishment statistics, we found no evidence of
formalized, written policies and procedures for the collection, compilation, review,
reporting, validation and record retention of key performance indicators and
accomplishment statistics.

Additionally, there were no formal procedures, manuals or guidelines for the compilation
of the accomplishment statistics covering the process and related internal controls at
Aguirre International, the firm hired to compile accomplishment statistics for
ArneriCorps State and National, ArneriCorps VISTA, and National Senior Service Corps
programs. (Aguirre International had written procedures for the data entry process.) The
absence of policies and procedures resulted in the findings described below:

Lack of guidance for data validation during site visits

We found that project site visits by state office and headquarters personnel did not
include data validation procedures (verification of data at the point of origin), review of
relevant internal control, or review of performance statistic compilation. Current site
visit procedures do not require testing of controls at the point of origin. Absence of this
control procedure increases the risk that errors or omissions with respect to the
compilation and reporting of program statistics are not being identified in a timely
manner for follow-up and resolution. In addition, by not reviewing key performance
indicators and accomplishment statistics at the project sites, the Corporation is foregoing
an opportunity to validate key performance indicators and accomplishment statistics. The
information gathered at the project sites is now entered into the Web Based Reporting
System (WBRS), which is also available to the state offices, state commissions and
national direct programs. With the implementation of WBRS, it is imperative that
controls over the accuracy and timeliness of data input exist because the paper trail has
been eliminated.

We also found that visits to sites by state office personnel and visits to the contractor
(Aguirre International) compiling accomplishment statistics by headquarters staff were
not always documented. There are no current requirements to document the review of
key performance indicators and accomplishment statistics during site visits.
Documentation provides evidence that certain procedures were performed and that issues,
if any, are identified and addressed. (See Finding 4)

Lack of Corporation state office review of certain key performance indicators and
accomplishment statistics

The Corporation did not involve state offices, when appropriate, in the performance
statistic reporting process related to the programs they are responsible for - AmeriCorps
VISTA and National Senior Service Corps. The Corporation state offices are responsible
for approving, monitoring and administering the work related to these two programs.
However, Aguirre International compiled the accomplishment statistics of these two
programs without substantial involvement of the state offices. (See Finding 7)

Lack of supporting documentation on management review of key performance indicators
and accomplishment statistics

The program directors of AmeriCorps State & National, AmeriCorps VISTA,
AmeriCorps NCCC, AmeriCorps National Senior Service Corps, and Learn and Serve
America asserted that they conducted reviews of the key performance indicators and
accomplishment statistics reported in the Fiscal Year 2000 Performance Report.
However, supporting documentation of the reviews was not provided. Documentation
provides evidence that certain procedures are performed and those issues, if any, are
identified and addressed. (See Finding 2)

Lack of documented evidence that contractor had appropriate oversight and incomplete
presentation of data

We were not provided with adequate documentation evidencing oversight of the
contractor, Aguirre International, by the Director of Evaluation during FY 2000. This
resulted in the Corporation's inability to determine the quality of oversight on Aguirre
International. For instance, we found no documented evidence that the Corporation
addressed the issue of an incomplete RSVP station population during visits to Aguirre
International. The survey that was subsequently conducted was incomplete because not
all stations were subjected to sampling. (See Findings 5 & 10)
Broadly stated key performance indicators and accomplishment statistics that are not
clearly defined

Certain key performance indicators and accomplishment statistics contained in the Fiscal
Year 2000 Performance Report were not well defined. The lack of a clear description for
a measurement or the subject of a measurement could cause readers to interpret the
statistics differently or to draw different conclusions as to the meaning of the key
indicator or accomplishment statistic. For example, the performance indicators "at-risk
youth assisted", "veterans and senior citizens assisted and "elderly clients served by
senior companions" do not clearly define for the reader what age group or types of people
are being assisted or served or what exactly was done to assist them. The report should
contain a definition of the groups and describe the nature of assistance provided to them,
so that any report reader can interpret the data in its proper context. (See Finding 6)

2.     Undocumented certification process

After we began our audit, the Corporation initiated a data reliability certification process
for the key performance indicator information. Although we received certifications
signed by program managers attesting to their review and that the key performance
indicators for which they were responsible are reasonable, no policy presently establishes
the basic requirements for reviewing or testing the information prior to certification and
no requirements exist for documenting the procedures that were performed.

Moreover, the certifications did not extend to the accomplishment statistics, which are
accorded considerable space and attention in the performance report. Certification by the
respective program director signifies that the accomplishments statistics have been
reviewed and deemed accurate and reliable. The Corporation indicated that these
accomplishment statistics were based on estimates and were self-reported by the projects.
Additionally, the Corporation stated that it did not expect the statistics to have a high
level of accuracy. It is noteworthy that the Director of the National Service Trust certifies
the key performance indicators generated by the National Service Trust database, not the
respective program director who is responsible for the program.

In response to our inquiries about the management review process over the
reasonableness of the reported key performance indicator and accomplishments, program
managers asserted that they had assessed the performance data for reasonableness and
relevance by comparing the statistics with similar data from previous years, with current
year budgeted amounts, and with the goals established for the key indicators. They also
stated that their review process had included regular meetings at CNS headquarters and
conference calls with field offices.

3.      Inadequate data validation

OMB Circular No. A-1 I, Part 2, Preparation and Submission of Strategic Plans, Annual
Performance Plans, and Annual Performance Reports, Section 220.12(a) states, relative
to data validation, "The means used should be sufficiently credible and specific to
support the general accuracy and reliability of the performance information that is
recorded, collected, and reported." Although the Corporation's data validation process is
described in the appendix of its Fiscal Year 2000 Performance Report, validation of key
performance indicators and accomplishment statistics did not include a review of a
representative sample of source documents at their point of origin. The Corporation
states that its resources do not permit this type of validation. An assessment of those key
performance indicators and accomplishment statistics possessing the greatest risk of
misstatement based on their method of compilation would assist in defining the nature
and extent of data validation necessary. Without adequate validation, the Corporation
key performance indicators and accomplishment statistics reported in the Fiscal Year
2000 Performance Report may not be reliable.

4.     Lack of guidance for data validation during site visits

Although site visits are periodically conducted by Corporation state office and
headquarters staff who typically visit program sites where the services are being
rendered, we found that project site visits by such staff members did not require a review
of internal controls over performance statistic compilations or data validation
(verification of data at the point of origin), due to a lack of policies and procedures
requiring validation of key performance indicators and accomplishment statistics. Data
integrity has become even more critical with the implementation of WBRS. The
information gathered at the project sites is now entered into WBRS, which is available to
the programs in the states, state offices, state commissions and national direct programs.
By not requiring review of key performance indicators and accomplishment statistics
during site visits, the Corporation is limiting its ability to assess the reliability of
performance data it receives from WBRS. We believe the additional effort of expanding
the scope of site visits to include internal control review, data validation, and review of
key performance indicators and accomplishment statistics, for those measures with the
greatest risk for misstatement, would be minimal and would enable the Corporation to
better assess the reliability of the data it receives.

Additionally, we found that state office and headquarters personnel did not always
document site visits because no policies and procedures mandate this step.
Documentation provides evidence that certain procedures were performed and that issues,
if any, are identified and addressed. The lack of documentation increases the risk that
issues will not be properly identified for follow-up in a timely manner.

5.      Aguirre International

Lack of formal compilation and reporting policies and procedures

Aguirre International, the firm hired to compile accomplishment statistics for
AmeriCorps State and National, AmeriCorps VISTA, and National Senior Service Corps
programs, did not have formal procedures, manuals or guidelines for the compilation of
the accomplishment statistics covering the process and related internal controls it uses to
compile data. (Aguirre International had written procedures for the data entry process.)
In response to our inquiries on accomplishment reporting, Aguirre International described
a very involved and complicated set of procedures to compile and report the
Corporation's accomplishments for the Fiscal Year 2000 Performance Report. The
procedures included the method of obtaining a database of survey participants, a survey
plan, a statistical sampling plan and a method of projecting results (when appropriate), a
method for analyzing results, and accomplishment statistics for accuracy and follow up
with survey participants. Aguirre International indicated that its personnel were very
familiar with the process, as they have been conducting the accomplishment reporting for
the past several years. However, a lack of written policies and procedures may result in
the inability of new personnel to perform the compilation and reporting of
accomplishment statistics. Additionally, the absence of policies and procedures as a
criteria for compiling performance data may result in current personnel not completely
 and/or accurately following the compilation procedures.

Data collected for more than 500 accomplishments

For purposes of reporting the FY 2000 accomplishment statistics, Aguirre International
collected numerous accomplishment statistics, and then the Corporation selected certain
ones for reporting. The number of accomplishments collected by Aguirre International
for ArneriCorps State and National, AmeriCorps VISTA and National Senior Service
Corps programs was 485. Additionally, a total of 35 accomplishments were separately
compiled by AmeriCorps NCCC. From the total of 520 accomplishment statistics
collected, only 76 or 15% were reported in the Fiscal Year 2000 Performance Report.

The Corporation has not conducted a cost-benefit analysis with respect to the number of
accomplishment statistics to be reported. It may be more efficient and cost beneficial for
the Corporation to reduce the number of statistics collected to those that will actually be
reported and to reallocate funding resources to other tasks, such as data validation and
program administration. Without an adequate cost-benefit analysis, the Corporation may
not be effectively using its limited resources.

Lack of documented evidence of contractor oversight

We also noted that the Corporation's controls over Aguirre International were limited to
periodic visits to Aguirre International and contract compliance reviews by the Director
of Evaluation and respective task managers. However, the Director did not provide us
with any documentation of site visits or compliance reviews for AmeriCorps State and
National program. While there are no formal policies and procedures requiring
documentation of site visits, documentation provides evidence that certain procedures
were performed and that issues, if any, are identified and addressed. Lack of
documentation could cause relevant issues to remain unidentified for follow up.
      Recommendations

We recommend that the Corporation implement the following:

       Establish and institutionalize written policies and procedures that, among
       other things, explicitly describe:
          - personnel accountable for compiling the key performance
              indicators and accomplishment statistics at headquarters, field
              offices and contractors, if any;
          - roles and responsibilities of personnel who are responsible for the
              compilation and review of the key performance indicators and
              accomplishment statistics;
          - identification of key controls for performance information
              compiled by contractors;
          - methodology for the review of the key performance indicators
              and accomplishment statistics;
          -   method and degree of data validation required at headquarters,
              field offices, and project or station sites;
          - anticipated timeline for the compilation and reporting process;
              and
          - policies for retention of supporting documentation.

       Through the formulation of policies and procedures, require documentation
       that describes the procedures performed to support the certification by
       program managers. Additionally, certification should be extended to
       accomplishment statistics.

       Conduct a risk assessment of key performance indicators and
       accomplishment statistics and formulate a data validation process for key
       perfonnance indicators and accomplishment statistics. The validation
       process should include a review of a representative sample of source
       documents at their point of origin during site visits. Additionally, the
       Corporation should develop and implement procedures to conduct and
       document the results of site visit testing of performance data, where
       applicable, including strengths, weaknesses, concerns, recommendations,
       and any necessary follow up requirements.

       Through the formulation of policies and procedures, require program
       directors of AmeriCorps State & National, AmeriCorps VISTA, AmeriCorps
       NCCC, National Senior Service Corps, and Learn and Serve America, to
       document and retain evidence of their review of key performance indicators
       and accomplishment statistics included in the performance report.

        Review all accomplishment statistics compiled by Aguirre International and
        reduce the number of accomplishment statistics collected by Aguirre
        International to those that will be reported. Conduct a cost-benefit analysis
       with respect to the number of accomplishment statistics to be reported, as
       appropriate, and reallocate funding resources to other tasks, such as data
       validation or managing the program.

       Require Aguirre International or any other contractor to formulate written
       procedures for its accomplishment compilation and reporting.

        Formulate written procedures that include the identification of key controls
        for performance information compiled by contractors. The Corporation
        should incorporate such requirements in its contracts with data collection
        firms, such as Aguirre International.

        Require, through policies and procedures, the Director of Evaluation to
        document visits to Aguirre International or any other contractor and contract
        compliance review.

6.     Broadly stated key performance indicators and accomplishment statistics that
       are not clearly d e f i e d

Certain key performance indicators and accomplishment statistics contained in the Fiscal
Year 2000 Performance Report were not well defined. The lack of a clear description for
a measurement or the subject of a measurement could cause readers to interpret the
statistics differently or to draw different conclusions as to the meaning of the statistic.
For example, the performance indicators "at-risk youth assisted, "veterans and senior
citi~ensassisted", number of children with special and exceptional needs served by
                  "


foster grandparents" and "elderly clients served by senior companions" do not clearly
define for the reader what age group or types of people are being assisted or served. The
report should contain a definition of the groups and describe the nature of assistance
provided to them, so readers of the report can interpret the data in its proper context. In
certain instances, a footnote at the end of the table may be warranted to explain the
measure being presented. Similarly, a clear definition of the statistics would help to
assure the consistency of information provided by program sites or others submitting data
to be compiled for the Performance Report.

       Recommendation

We recommend that the Corporation standardize definitions of measures that could lead
to different interpretations of accomplishments or different conclusions as to which
measures were used to compile the statistics. The definitions should be included in the
Performance Report's discussion of the key performance indicators and accomplishment
statistics and to the programs at the onset of the program year.
WM3
7.     Lack of state office involvement in the performance reporting process

The Corporation did not involve state offices, when appropriate, in the performance
statistic reporting process related to the programs they are responsible for -
AmeriCorpsVISTA and National Senior Service Corps - because there were no policies
and procedures requiring such involvement in the reporting process. The Corporation
state offices are responsible for approving, monitoring and administering the work related
to the AmeriCorpsVISTA and National Senior Service Corps programs. Consequently,
they are the most knowledgeable of the programs in their respective states and have direct
interaction with the projects or stations.

However, Aguirre International complied the accomplishment statistics of these two
programs without substantial involvement of the state offices. Aguirre International sent
surveys directly to the projects or stations. State office involvement was limited to
following up with those projects or stations that did not respond to the survey.
Additionally, the projects under National Senior Service Corps programs sent their
progress reports directly to the Corporation's headquarters, bypassing the state offices.
The Corporation's headquarters asked the state office to intervene only if the project
failed to provide the required data. The state office staff indicated that they should be
involved in the process, especially the validation of data, among other things. By not
including the state offices in the reporting process, the Corporation may not be
completely and accurately reporting its key performance indicators and accomplishment
statistics.

       Recommendation

We recommend the state offices participate in the key performance indicators and
accomplishment statistics compilation and verification process, particularly for the
AmeriCorpsVISTA and National Senior Service Corps programs, as they are most
knowledgeable of the programs in their respective states and have direct interaction with
the projects or stations.

8.     AmeriCorps - State and National

Lack of distinction between reported levels of effort

Activities that require distinct levels of effort should be differentiated and accompanied
by adequate disclosure to prevent misleading readers of the performance report. For
example, the statistics reported for "number of students tutored or mentored", made no
distinction between a student tutored for a few days versus a student tutored for most of
the program year. The statistic was compiled and reported without distinguishing the
level of effort or frequency of tutoring activity. In another example, with respect to the
statistics reported representing the pounds of food distributed at a food distribution center
for the needy, our inquiry to Aguirre International indicated that the unit of measure was
not uniformly defined. An AmeriCorps member may be participating with other non-
AmeriCorps volunteers and employees in an event, but take credit for all pounds of food
that the group delivered. Such situations result in inaccurate reporting and form an
inaccurate picture of the project's levels of effort.
m!
 4
Projects were not advised of accomplishment statistics compilation requirements at the
beginning of the project

The data required for annual reporting of accomplishment statistics should be identified
and defined at the beginning of the project to reduce the risk of inaccurate reporting by
project leaders. The parameters for any anticipated data collection should be well defined
and the responding entity made aware of them so as to enable them to plan and record
data accordingly. At the Virginia State Commission, for example, we were informed that
the projects are required to periodically report project progress on an OMB-approved
form, which is given to the project director. The reporting parameters for
accomplishments are described on the OMB-approved form. However, Aguirre
International sent the projects performance reporting survey forms that required
information on items that were not originally selected as data points (e.g. how many trash
bags collected in a given period) on the OMB form. Since the project directors could not
anticipate the need to record this data, they were forced to complete the data collection
survey based on their best estimates, not on actual data collected. Data reported from
estimations or from memory carry a high risk of being materially inaccurate.

       Recommendations

We recommend that the Corporation:

        Clearly define how to capture and report statistics relating to
        accomplishments of the programs when the measure could be based on
        varying levels of effort for the activity performed. For example, statistics for
        individuals tutored for one day of the year should be reported separately
        from individuals tutored for the entire school year.

        Identify accomplishment measures to be reported by the AmeriCorps state
        offices that will be captured in the survey forms, incorporate them with the
        OMB approved form, and advise state offices of the reporting requirements
        before the beginning of the project.

9.     AmeriCorps - National Civilian Community Corps (NCCC)

Project service completion reports not signed

We found that the project sponsor and campus director did not both sign 10 out of 27
project service completion reports at the Denver campus, which were used to compile the
NCCC program accomplishment statistics. This report, when signed by the director of the
NCCC campus as well as the representative of the sponsoring organization, verifies that
the report's accomplishment data has been reviewed and certified to be correct. The lack
of signatures by the director and sponsor could lead to inclusion of invalid data in the
Performance Report.
m!!
       Recommendation

We recommend that the Director make sure that the project service completion reports
are signed and the project sponsor has certified the report. The duly signed reports
should either be available in the project file or in a separate folder. Data from unsigned
and uncertified reports should not be included in the accomplishment reports.

10.    National Senior Service Corps

Incomplete presentation of data
In order to ensure a proper sampling of a data set, the population sampled must be
complete. In addition, a statistician should review the sampling plan to ensure that the
methodology and the sample size are appropriate.
The Corporation cannot verify that all National Senior Service Corps RSVP stations were
included in the survey because the Corporation does not believe the projects provided a
complete listing of stations to Aguirre International for performance reporting surveys.
The Corporation states that it cannot compile a complete list of all National Senior
Service Corps RSVP stations because of the large number of these stations (numbering
approximately 70,000) and the transient nature of some RSVP stations and projects. As a
result, the Corporation cannot precisely specify the total population of RSVP stations,
potentially resulting in inadequate sampling of them. Aguirre International relied on
project listings provided by select projects that were surveyed.
        Recommendation
We recommend the Corporation improve its collection process for information regarding
National Senior Service Corps RSVP stations in order to have a more accurate
assessment of the total National Senior Service Corps RSVP stations and ensure a
representative statistical sampling. If the RSVP station-related key performance
indicators and accomplishment statistics are not reliable, the Corporation should indicate
this condition with a footnote to the statistic within the Fiscal Year 2000 Performance
Report.

11.     Learn and Serve America

Unreliable key pevformance indicators and accomplishment statistics

Reporting of key performance indicators and accomplishment statistics should be based
on a substantially complete data population. The Learn and Serve America program
compiled key performance indicator statistics based on semi-annual progress reports
submitted by grantees. Corporation personnel indicated that approximately 70% of
grantees submitted semi-annual progress reports; therefore, the information is
incomplete. We were also informed that the reported numbers for Learn and Serve
America grantees may either be numbers from semi-annual reports or rounded estimates
from telephone discussions with other organizations when reports were not provided.
The Fiscal Year 2000 Performance Report chapter in which Learn and Serve America
statistics are reported does not indicate that the data may not be based on accurate
numbers. Instead, data collection deficiencies are disclosed only in Appendix A: Data
Quality.

The Corporation maintains (as described in Fiscal Year 2000 Performance Report
Appendix A: Data Quality) that the performance data contained in the project progress
reports must be considered as having a lower level of accuracy than other Corporation
systems. As a result, the data is unreliable and the Corporation should consider whether
it should be reported at all.

       Recommendations

We recommend that the Corporation reevaluate the need to present Learn and Serve key
performance indicators in future performance reports, as they are unreliable. However, if
upon evaluation, these indicators are presented in future reports, we recommend that the
Corporation clearly indicate data accuracy limitations by inserting a footnote within the
body of the report.
                                                                                           APPENDIX I

KEY PERFORMANCE INDICATORS AND ACCOMPLISHMENT STATISTICS
SELECTED FOR CONTROL TESTING

 Program                      Key Indicator                                  Data Source
 4meriCorps*State and         Number of members enrolled: 35,3 19            National Service Trust
 Vational                                                                    Database
                              Number of members enrolled: 93 1               National Service Trust
                                                                             Database
                              Number of VISTA service years completed        VISTA Management
                              in projects where the focus of activity is     System
                              children's literacy: 2,115
                              Number of VISTA service years completed        VISTA Management
                              (excluding negotiated cost-share               System
                              agreements): 5,906
                              Number of VISTA service years supported
                                                                  --         VISTA Management
                              by cost-share agreements: 987                  System and VISTA Cost-
                                                                             Share Database
 Learn and Serve America      Number of students in projects supported by    Semi Annual Progress
                              Learn and Serve ~merica:"1,188,000             Reports; Department of
                                                                             Service-Learning
 Senior Corps: SCP            Number of frail, homebound, usually            Project Profile and
                              elderly clients served by Senior               Volunteer Activity Database
                              companions: 61,000 -
 Senior Corps: FGP            Number of children with special and            Project Profile and
                              exceptional needs served by Foster             Volunteer Activity Database
                              ~ r a i d ~ a r e n t230,000
                                                   s:      -
 Senior Corps: RSVP           Number of federally funded RSVP                Grants Tracking Database
                              volunteers budgeted: 473,709

 National Service Trust       Number of AmeriCorps members enrolling         National Service Trust
                              in the Trust: 40,334                           Database

 AmeriCorps*State and         Percent of members who complete a term of      National Service Trust
 National                     service and become eligible to receive an      Database
                              education award: 75.4%
 Innovation,                  Number of applicants to AmeriCorps:             VISTA and NCCC
 Demonstration and            VISTA: 3,792                                    Applicant and Placement
 Assistance Activities        NCCC: 3.975                                     Database
 Program                      Accomplishments                                 Data Source
 Health and Human Needs        10,000 at-risk youth assisted                  The information is taken
                                                                              from AmeriCorps*National
                                                                              Civilian Community Corps
                                                                              database
 Environment and              Trees or shrubs planted: 135,000                The information is taken
 Neighborhood                                                                 from AmeriCorps*National
 Restoration                                                                  Civilian Community Corps
                                                                              database

Note: The key indicators for number of members enrolled in the AmeriCorps State and National and
AmeriCorps NCCC reported at 35,5 19 members and 93 1 members, respectively, do not equal the number
of ~ m e r i ~ o r members
                   ps      enrolled in the National Service Trust (Trust), 40,334 members, because the Trust
includes members enrolled in the AmeriCorps VISTA.
                                                                             APPENDIX I1

OBJECTIVES, SCOPE & METHODOLOGY

The Corporation for National and Community Service, Office of Inspector General
engaged KPMG LLP to audit the Corporation's controls over the existence and
completeness of the Corporation's key performance indicators and accomplishment
statistics reported in the Fiscal 2000 Performance Report. We selected certain key
performance indicators and accomplishment statistics that were representative of the
Corporation's programs. Other than the key performance indicators and accomplishment
statistics, we did not test the controls over other performance statistics reported in the
Fiscal 2000 Performance Report, as these were outside the scope of our audit.

 The Office of Management and Budget (OMB) Bulletin No. 01-02' Audit Requirements
for Federal Financial Statements, states "the auditor shall obtain an understanding of the
 components of internal control relating to existence and completeness assertions relevant
 to the performance measures included in the MD&A (Management's Discussion &
 Analysis). Those internal controls that have not been properly designed and placed in
 operations shall be reported.. ." The Corporation issued a report on performance
 measures and another on its financial statements. Accordingly, the requirements of OMB
 Bulletin No. 01-02 are being addressed in this audit.

We selected statistics for control testing from the Corporation's major programs -
AmeriCorps, National Senior Service Corps, and Learn and Serve America - where a
significant amount of the Corporation's resources have been expended (see Appendix I).
In selecting our sample, we also considered the statistics associated with activities that
are critical to fulfilling the mission of the programs as well as the risks associated with
the compilation of the key performance indicators and accomplishment statistics.

The scope of our audit was limited to the following:

         The Corporation's controls over a sample of Fiscal 2000 Performance
         Report key performance indicators and accomplishment statistics that were
         compiled by the Corporation; and

         The Corporation's controls over Aguirre International's compilation and
         reporting of selected accomplishment statistics reported in the Fiscal 2000
         Performance Report (Aguirre International was contracted by the
         Corporation to compile accomplishment statistics for its three major
         programs - AmeriCorps State National, VISTA and National Seniors Service
         Corps).

 With the exception of the VISTA key performance indicators, we did not test the
 underlying data of the Corporation databases because the relevant internal controls
 associated with those statistics were not part of the Corporation's internal control
 structure.
                                                                             APPENDIX I1

Sample Selection

Our population consisted of all key performance indicators and accomplishment
statistics reported in the Fiscal 2000 Performance Report. As discussed previously, in
selecting our sample, we considered the Corporation's major programs, as well as the
statistics associated with activities critical to fulfilling the mission of the programs. We
also considered those key performance indicators and accomplishment statistics that, in
our judgment, had higher risks associated with their compilation because of the means in
which they are compiled. KPMG selected the following for internal control testing:

       12 key performance indicators from the total population of 50 key
       performance indicators reported in the Fiscal 2000 Performance Report. The
       selection covers all Corporation programs and major databases.

        2 out of 12 accomplishment statistics emanating from NCCC were selected.
        All other accomplishments in the Fiscal 2000 Performance Report were
        compiled by sources outside the Corporation.

We subsequently conducted testing at the following sites:

        10 Corporation state offices: California, Washington, Colorado, Louisiana,
        Michigan, Virginia, New York, New Hampshire, Florida, and Texas;

        3 AmeriCorps NCCC campuses out of five: California, Colorado, and
        Washington, DC; and

        The Corporation headquarters in Washington, DC.

Audit Procedures

Our audit included the following procedures:

        review of the Government Performance and Results Act of 1993, relevant
        sections of OMB Circular A-1 1, Part 2, Preparation and Submission of
        Strategic Plans, Annual Performance Plans, and Annual Performance
        Reports, and OMB Bulletin No. 01-02, Audit Requirementsfor Federal
        Financial Statements, and relevant General Accounting Office reports;

        inquiry and observation of controls over the key performance indicator and
        performance statistics compilation and reporting processes at the
        Philadelphia state office, Virginia state commission, Aguirre International,
        ArneriCorps NCCC Washington, DC campus, and the Corporation
        headquarters;
                                                                            APPENDIX I1

       interviews with Corporation personnel and review of relevant documentation
       at the Corporation headquarters;

       control testing of AmeriCorps VISTA member and project files relating to
       VISTA service years at the Corporation state offices in Virginia, Florida,
       New Hampshire, Texas, Louisiana, New York, Washington, California,
       Colorado, and Michigan. The test was designed to verify the number of
       service years completed by VISTA members in the reporting period as well
       as the number of service years completed in projects where the focus of
       activity was children's literacy. We also tested the number of VISTA
       service years supported by cost share agreements. In addition, we designed
       a questionnaire for documenting the state office controls on the key
       performance indicators and accomplishment statistics of VISTA and Seniors
       programs in the state;

       control testing of accomplishments - trees and shrubs planted and at-risk
       youth assisted. We also reviewed member and project files at AmeriCorps
       NCCC campuses in Colorado, California, and Washington, DC;

       review of data queries of reports generated by the Corporation databases for
       key performance indicators. With the exception of the AmeriCorps VISTA
       key performance indicators, we did not test the underlying data of the
       Corporation databases because the relevant internal controls associated with
       those statistics were not part of the Corporation's internal control structure.
       The point of origin of data for those statistics was at the
       projects/sites/stations levels, which are under the control of either public
       agencies or other not-for-profit organizations;

       We also considered information obtained in the 12 pre-audit surveys recently
       performed by KPMG at the following state commissions: Alabama, Texas,
       Maine, Vermont, South Carolina, Virginia, Pennsylvania, Mississippi,
       Nevada, Colorado, Maryland and Connecticut. The work performed
       included procedures to determine the extent to which the state commissions
       reviewed or monitored data sent to CNS for key performance indicators and
       accomplishment statistics and accomplishment reporting.

We summarized the results of our work to develop the findings and recommendations
presented in this report. We discussed all findings with Corporation management during
an exit conference on May 25,2001.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States.
                                                                             APPENDIX I11

PERFORMANCE MEASURES COMPILATION PROCESSES

The Corporation compiles data on key performance indicators and accomplishment
statistics from the reports generated from its own databases, reports prepared by
contractors and reports submitted to the Corporation by the grantees or subgrantees. The
program director is responsible for reviewing the accuracy of the data prior to submission
to the GPRA coordinator for reporting in the Fiscal 2000 Performance Report.

Key Performance Indicators

AmeriCorps State and National and National Civilian Community Corps (NCCC)
The AmeriCorps State and National and NCCC key performance indicator statistics are
derived from the Corporation's National Service Trust database through the Web Based
Reporting System (WBRS). The data is input into the WBRS by the state commissions,
state programs, national programs, Corporation state offices and AmeriCorps NCCC
campuses. Data is uploaded into the National Service Trust Database at the headquarters.
The National Service Trust staff write data queries to produce reports which are reviewed
by the respective program directors and sent to the GPRA coordinator for inclusion in the
Fiscal 2000 Performance Report. The Director of the National Service Trust reviews the
reports and attests to the reliability of the data generated by the system by signing a
Certification of Data Reliability.

AmeriCorps VISTA
The VISTA Management System database (VMS) is maintained at Corporation
headquarters. Personnel at the various state offices input member profile data on VISTA
members into VMS. To extract information about the members for performance
reporting, headquarters staff write data queries and generate reports from the database.
After the program director reviews the reports, he signs a form, the Certification of Data
Reliability, attesting to the reliability of the data generated by the database. The reports
are then given to the GPRA coordinator for inclusion in the Fiscal 2000 Performance
Report.

National Senior Service Corps
The National Senior Service Corps program maintains the Project Profile and Volunteer
Activity Database. Project survey reports are sent directly to the National Senior Service
Corps program at Corporation headquarters where these reports are entered, edited, and
maintained in the database by the program staff. A data query is written and the
information generated for GPRA reporting. The program director reviews the
performance data and signs the Certification of Data Reliability. The number of federally
funded National Senior Service Corps RSVP volunteers budgeted is based on the report
generated from Grants Tracking Database. The Certification of Data Reliability is signed
by the Seniors Program director.
                                                                          APPENDIX I11

Learn and Serve America
Reports on key performance indicators for the Learn and Serve America program were
based on Semi Annual Progress Reports from grantees. The information is entered in an
MS Excel spreadsheet by program staff at Corporation headquarters. The Certification of
Data Reliability is signed by the program director.

AmeriCorps NCCC and AmeriCorps VISTA Applicants
The number of applicants to NCCC and VISTA programs are provided by the program
director of the AmeriCorps Recruitment department. The national VISTA applicants are
entered into an Access database maintained by AmeriCorps Recruitment department. The
data relating to the NCCC applicants is maintained by a contractor, Systems Technology
Corporation, who provides reports to the AmeriCorps Recruitment department. For the
VISTA program, the Access database report is generated by the AmeriCorps Recruitment
department staff. The director of AmeriCorps Recruitment signs the Certification of Data
Reliability.

Accomplishments Statistics

With the exception of AmeriCorps NCCC, accomplishment statistics were compiled by a
contractor, Aguirre International. The Corporation engaged Aguirre International to
compile accomplishment statistics of AmeriCorps State and National, AmeriCorps
VISTA and National Senior Service Corps programs.

AmeriComs NCCC
The accomplishment data is entered into an Access database at the NCCC Campus from
Service Project Completion Reports, which are compiled by campus staff. The reports are
signed by the sponsor of the project and the campus director. The data are sent to NCCC
headquarters where the report data is downloaded into the AmeriCorps National Civilian
Community Corps database. System query reports are generated from this database and
presented to the GPRA coordinator in the form of an accomplishment report. The data is
reviewed by the NCCC national program director. The Data Quality Certification is not
used for accomplishment statistics.

AmeriCorps State and National Accomplishment Survey
Aguirre International is responsible for conducting the survey of accomplishments of
AmeriCorps State and National, AmeriCorps VISTA, and National Senior Service Corps
programs. Aguirre International sends the accomplishment survey forms to the state
commissions or the parent organization of the national direct programs, which in turn,
forward the survey to their grantees (subgrantees of CNS). Once completed, the survey
forms are sent back to Aguirre International for processing. Aguirre International logs
the survey information into a database and verifies the accuracy of the input. The output
is sent to the project for confirmation of the accuracy of the data and to the Corporation
grantee (state commissions and national direct organizations) for their information and
review. In an attempt to obtain a complete population, Aguirre contacts those survey
                                                                           APPENDIX I11

recipients that have not responded by the expected date, first by letter and then by
telephone. After 80% of the responses have been received, the summary report is
prepared. The reports are prepared at three levels - Program, State, and National Direct.

AmeriCorps VISTA Accomplishment Survey
For fiscal years 1996-97, the Corporation contracted with Westat Inc., a social science
research firm in Rockville, Maryland, to compile the accomplishments of VISTA
projects. For fiscal year 1998, the contract was awarded to Aguirre International. To
maintain consistency in data reported from year to year, Aguirre adopted the compilation
methodology used by Westat Inc. for prior surveys. To compile the ArneriCorps VISTA
accomplishment statistics, the contractor sends survey forms directly to the VISTA
projects and informs the state offices of the mailings by letter. The processing of the
surveys is similar for the AmeriCorps State and National Accomplishment Survey.

National Senior Service Corps Survey
The data for the National Senior Service Corps RSVP accomplishments was compiled
through a survey conducted by Aguirre International. A statistical sample of RSVP
stations was selected to be surveyed. However, prior to drawing the sample, the
Corporation did not have a complete population of RSVP stations. Nevertheless, a
sample was drawn from the incomplete population of stations by Aguirre International
and the surveys were sent to the RSVP stations. The stations subsequently sent the
surveys to Aguirre International for processing.
                                                                                  APPENDIX IV




MEMORANDUM

TO:             Luise Jordan, Inspector General

FROM:
                                 4
                DavkH@imlrecfo@~&iL
                                       i
                Department of Evaluatibn and Effective Practices

DATE:           July 26,2001

SUBJECT:         Comments on OIG Draft Report 01-28: Audit of Controls Over the Corporation
                for National and Community Service's Key Performance Indicators and
                Accomplishment Statistics.




The Corporation has reviewed Draft Report 0 1-28: Audit of Controls Over the Corporation for
National and Community Service's Key Performance Indicators and Accomplishment Statistics.
We are pleased that the report confirms the accuracy of the Corporation's performance statistics.
The auditors tested 12 performance statistics, sampled purposively because they were ( 1 )
associated with a "significant amount of the Corporation's resources, (2) "critical to fulfilling the
mission of the programs," and (3) associated with a certain level of risk. Of the 12 performance
measures, the auditors "determined that eleven were reasonably accurate." In the case of one
indicator, drawn from the Learn and Serve America program, the audit report agrees with
Corporation's assessment that the indicator is at best an estimate.

In the process of providing information to the auditors in the course of their study, we detailed for
them the processes and data query language we use to develop the indicators from the data
provided to us by grantees, service program participants, and other sources. In each case they
tested, the auditors report that they were able to reproduce successfully the same result that we
reported to Congress in our 2000 performance report.

The auditors also acknowledge that the Corporation goes beyond the requirements of the
Government Performance and Results Act. In addition to reporting on key performance
indicators as required by the act, we present data in the form of accomplishment statistics for all
programs except Learn and Serve America. Our performance report provides findings on
customer satisfaction for all Corporation programs. Furthermore, as the auditors report, we
provide extensive information of the end outcomes of all program areas as established by
independent program evaluation studies.

The audit report also contains recommendations for improving our performance measurement
systems and processes. Several of these recommendations we have either already begun
implementing or we are prepared to implement in the near future.

Overall, the report's characterizations that our data are accurate, that our procedures are
replicable, and that we exceed the requirements of the Results Act in our comprehensive
performance reports are findings that we are pleased to share with Congress and the American
people.

That said, there are several matters that we wish to clarify in the detailed response to the report
that follows.
                                                                               APPENDIX IV



Overview of the Corporation's Performance Measurement and Reporting System

The Corporation believes that any appraisal of its performance statistics should begin with an
understanding of our overall philosophy concerning performance measurement. Essentially, each
piece of data in the Corporation's Fiscal 2000 Performance Report comes from one of four types
of data that make up the Corporation's performance measurement system:

       Annual performance indicators
       Accomplishment reports
       Customer satisfaction surveys
       Program evaluations.

Each of these data types is valid and useful for understanding program performance. If any data
type were used in isolation, however, the presentation would be incomplete and misleading. A
comprehensive understanding of program performance must use data from all four sources
because each has strengths and taken together they complement each other. The auditors looked
at a sample of measures drawn from the annual performance indicators and accomplishment
reports. They did not, however, review customer satisfaction surveys nor did they cover program
evaluation.

Annual Performance Indicators

The Corporation has several data systems for which information is collected on a regular basis
from grantees and subgrantees and from members of service programs. These indicators
primarily measure aspects of program performance that are in the direct control of the
Corporation. These data are useful for oversight and management of the programs. Many of
these measures focus on what programs do with federal funds-such as carrying out projects,
enrolling members, awarding subgrants, and so on.

Accomplishment Reporting

Asking programs to report accomplishments allows them to quantify the contributions they are
making toward meeting critical community needs. These counts of service performed (e.g.,
community buildings rehabilitated, students taught, and neighborhood watches conducted) help
report the work of national service.

Accomplishment reports are prepared annually for AmeriCorps*State and National grantees.
AmeriCorps*National Civilian Community Corps (AmeriCorps*NCCC), AmeriCorps*VISTA
and the Senior Corps programs are collecting accomplishment reports from project sponsors and
grantees every other year. Due to the scale of the Senior Corps programs, their reports rely on a
random sample of projects rather than a census.

Independent research contractors collect accomplishment data from AmeriCorps*State and
National grantees, AmeriCorps*VISTA project supervisors, and Senior Corps project sponsors.
The data are collected annually or bi-annually using standard forms that allow for aggregation of
the data nationally. The reporting forms have undergone several rounds of revision and
standardization. Project directors and sponsors complete the report forms, based on their own
systems for keeping records of activities and accomplishments. The Corporation has provided
technical assistance to grantees on how to complete these reports. AmeriCorps*NCCC campus
staff report accomplishment data directly to the Corporation.
                                                                                 APPENDIX IV




The data are subject to edit checks, range checks, and other tests of reasonableness by the
research contractors. The data are, however, self-reports from grantees and project sponsors,
dependent on the accuracy and completeness of the tracking systems they maintain.
Accomplishment reporting simply asks programs to tell the Corporation what they got done in a
structured way that can be aggregated for a picture of national effort. This limitation is noted in
our GPRA plans and reports.

Customer Satisfaction Surveys

The Corporation's programs have many customers: program participants, grantees, community
residents receiving services, and local and state governments. Gathering customer perspectives
on how well their needs are met is an essential part of the Corporation's commitment to
continuous quality improvement In initiating this activity the Corporation was responding to the
requirements of a Presidential Executive Order on "Setting Customer Service Standards
(0911 111993). Targeted customer satisfaction surveys are conducted periodically, asking direct
customers -- the grantees and program participants -- how well the Corporation serves them.

Program Evaluation Studies

Program evaluation represents a significant area of investment by the Corporation. Unlike the
other performance measures, outcome evaluation studies are not likely to occur every year
because they are more expensive and time consuming to carry out. Program evaluation studies,
however less frequent, provide highly reliable, valid and useful information on what national
service programs achieve for the American people.

One reason the Corporation places so much importance on program evaluation lies in the
relationship the Corporation has with its national service programs and their outcomes. The
Corporation supports national service almost exclusively by making grants to nonprofit, private,
and public institutions. These grantees, in turn, use federal funds and guidance, combined with
other sources of support, to design and operate service programs meeting locally defined needs.

Working through these networks of grantees, subgrantees, community sponsors, and other
partners to accomplish the Corporation's mission means that the outcomes of national service
programs are often the result of factors outside the Corporation's control. These complex
systems make it challenging to identify the federal contribution to the end outcomes. Individual
program evaluations, by using formal, scientific methods, including sampling and control groups,
can identify the direct results and impact of national service programs.

The Corporation believes that, with focused, scientific, program evaluations, the results of service
programs can be identified and measured. The Corporation contracts with research organizations,
then gives them the independence and resources to do reliable and valid studies of national
service programs. An example of the complexity involved in measuring the outcomes of service
programs is the recently completed study of AmeriCorps tutoring and reading achievement. ' The
results of the reading study were based on pretest and post-test data from 869 students in grades
one, two, and three receiving AmeriCorps tutoring services in 68 programs serving 93 schools
nationwide. Four types of information were collected in the study: reading performance,
classroom behavior, descriptions of tutoring program components, and tutor experiences with
children.

A formal policy (Corporation for National Service Policy Number 900) governs evaluation
activities in the Corporation. It sets stringent standards that ensure the quality of the studies
                                               A.10
                                                                                 APPENDIX IV




conducted on the Corporation's behalf. In addition, there is growing interest in national service
and service-learning on the part of universities, foundations, and public interest groups. Thus, in
addition to the contract research sponsored by the Corporation, our GPRA performance reports
include findings from individuals and organizations working independently of the Corporation
and its support.

A Discussion of the Findings and Recommendations

Finding 1. Lack of written policies andprocedures.

The Corporation has met all requirements governing compliance with the Government
Performance and Results Act of 1993. We have fully complied with the statute and its
implementing regulations as promulgated by the Office of Management and Budget through the
A-1 1 guidance process. Neither the act nor the OMB regulations require that we have written
policies and procedures governing our GPRA activities. We agree, however, with the auditors
that written guidelines would have some utility.

        Audit Recommendation: "Establish and institutionalize written policies and procedures
        that, among other things, explicitly describe: personnel accountable for compiling key
        performance indicators and accomplishment statistics . . .; roles and responsibilities of
        personnel . . ; identification of key controls for performance infomration compiled by
        contractors; methodology for the review of key performance indicators and
        accomplishment statistics; method and degree of data validation required . . .; anticipated
        timeline for the compilation and reporting process; policies for retention of supporting
        documention."

        Response: The Corporation accepts the recommendation and will draft policy and
        procedures covering compliance with the Government Performance and Results Act of
        1993.

a. Lack of guidance for data validation during the site visits.

This finding primarily concerns the activities of Corporation State Office staff. At the present
time there is an established protocol and instrumentation used by all State Office staff in
conducting on-site compliance monitoring of National Senior Service Corps (NSSC) projects.
This protocol includes the requirement of validating certain specific data on performance
indicators and accomplishments at the point of origin (i.e. documentation and records at the
project level. There is, however, not a strict correlation between the performance indicators and
accomplishment statistics gathered through the Aguirre contractors and those checked and
validated through the current iteration of the NSSC monitoring instrument.

With regard to AmeriCorps*VISTA, the Corporation is currently developing a protocol and
instrumentation for on-site compliance monitoring to determine, in a standardized manner, the
extent to which project accomplishments are measured and validated. In crafting this protocol,
the Corporation will take steps to ensure that this monitoring process incorporates procedures and
tests designed to verify key performance data at the project level (point of origin).
                                                                                APPENDIX IV



b. Lack of Corporation state ofice review of certain key performance indicators and
   accomplishment statistics.

The National Senior Service Corps compliance monitoring system detailed in 1.a above does
have a firm requirement that CNS State Office staff document the full results of their findings on
the project accomplishments and performance indicators for each on-site compliance monitoring
of an NSSC project. With respect to NSSC and AmeriCorps
*VISTA reporting systems, steps will be taken to achieve greater consistency between them in
measuring project accomplishments and results.


c. Lack of supporting documentation on management review of key performance indicators and
   accomplishment statistics.

The Corporation required each program manager responsible for a key performance indicator to
respond to a "GPRA Data Call" designed to either certify the accuracy of the data or to identify
weaknesses that could be corrected. The data call memo asked managers to:

    1. Determine the actual performance on these indicators during fiscal 2000 (October 1, 1999
        to September 30,2000).
    2. If data are available for the years before 2000, please determine those numbers also.
    3 . Report the results by Friday, February 2, 200 1.
    4. Include documentation that will support the results reported. This could involve:

            Stating the source or sources of the data.
            The names of the person or organization doing any analysis needed to produce the
            result.
            Copies of any tables or computer output showing final tabulations.
            A copy of any forms that were used to collect the data.

    5 . Complete and sign an attached form certifying to the accuracy of the information
        reported.


        Audit Recommendation: "Through the formulation of policies and procedures, require
        program directors . . . to document and retain evidence of their review of key
        performance indicators and accomplishment statistics included in the performance
        report."

        Response: We assert that the process guidance described above documents the review
        process that was followed. Every manager was asked to follow the same basic procedure.
        We understand that the auditors believe the documentation process can be improved. We
        agree that improvement is always possible and we commit to looking for ways to help
        program managers better document their internal reviews prior to reporting data and
        certifying its accuracy.
                                                                                    APPENDIX IV




d. Lack of documented evidence that contractor had appropriate oversight and incomplete
   presentation of data.

The Corporation is confident that the quality of the performance of Aguirre International is high
and we believe that the oversight of the accomplishments collection and aggregation process is
complete. The methodological and practical challenges of conducting accomplishment reviews
were developed meticulously over several years of very active collaboration between the Office
of Evaluation, the program offices, and Aguirre. By the year for which this audit was conducted,
the collection of AmeriCorps accomplishments was a fairly routine procedure, oversight of which
is handled largely through specification of the deliverables in the contract and day-to-day, by
telephone conversation.

The auditors received evidence that the Corporation provided the data sets for mailing the survey
forms and approved the letters to be sent to grantees at various stages of the process. The
categories of accomplishments are stable, having been last significantly revised in 1997. The data
aggregation procedures are similarly stable, having been largely established in 1994-1996.

In the case of the Senior Corps accomplishment's considerable additional evidence of active
oversight was provided to KPMG. The Corporation staff were heavily engaged in the effort of
generating the universe of NSSC stations, both in supervising Aguirre International and in
communicating directly with Senior Corps grantees.

e. Broadly stated key performance indicators and accomplishment statistics that are not clearly
   defined

Accomplishments reviews are, and have always been, intended to be an estimate of the scope and
extent of the efforts of national service programs. They are illustrative of the range of efforts
Corporation-sponsored service programs engage in and they permit the reader to appreciate the
scale of the efforts of these service organizations. Development of the accomplishment
categories has been an organic process, involving Corporation staff, contractor insights, and
grantee feedback. Moreover, the accomplishment categories, as reflected in the items on the
survey instruments, are subject to public comment and OMB approval.

We believe that the categories strike a reasonable balance between excessive generality and
burdensome specificity. As the categories grow more specific, they necessarily grow narrower,
causing the addition of yet further categories to specify narrowly other aspects of some class of
services or subset of service recipients. Further splitting, we believe, would result in unnecessary
grantee burden and undesirable reader overload.

We have chosen to let the programs make reasonable decisions about the characterization of their
activities with the understanding that some generalization will be necessary. To do more would
produce rapidly diminishing returns. For example, not even the many youth-serving professions
agree upon the exact definition of "at-risk youth." Moreover, the range of services that national
service programs provide to "at-risk youth7' so-categorized covers a tremendous range of
interventions including educational, social, psychological, legal, cultural, and financial assistance.

Although phrases like "the elderly", "at-risk youth" or "veterans" have not been narrowly
defined, we feel confident that our public readership has a shared understanding of what those
phrases mean. We believe that the public also shares a general understanding of the range of
services that individuals in those categories might need as a consequence of the associated
                                               A.13
                                                                                  APPENDIX IV



challenges. The range of services provided by National Service programs is sufficiently broad as
to cover those shared understandings. Thus, while a phrase such as "at-risk youth assisted may
not be highly specific, it is accurate in the sense that both the assisted population and the services
provided to them, as defined by the reader are, in fact, encompassed by the activities reported
from the programs.

In general, the Corporation agrees that in some areas of the performance measurement process
there is a need for written policies and procedures. We commit to preparing a formal Corporation
policy covering our compliance with the Government Performance and Results Act of 1993.

Finding 2. Undocumented certification process.

The Corporation acknowledges that it began a data certification process after the audit began. In
fact, we initiated the process based on a strong recommendation from a member of the audit team.
We believed then and continue to believe that the suggestion was a useful one and we plan to
continue using the system in preparing next year's report.


        Audit Recommendation: "Through the formulation of policies and procedures, require
        documentation that describes the procedures used to support the certification by program
        managers. Additionally, certification should be extended to accomplishment statistics."

        Response: We concur, in part, and will follow through on these suggestions for further
        documentation by program managers as part of the data certification process. We do not
        agree that it is necessary or useful to extend data certification to the accomplishment
        statistics. The responses below to Findings 5-8 explain our reasoning.


Finding 3. Inadequate data validation.

The Corporation believes that the data systems we have in place provide the means to "support
the general accuracy and reliability of the performance information that is reported. The audit
report finds that the Corporation's performance indicators are "reasonably accurate." Reliability,
in the social science understanding of the term, simply means that measures are replicable and the
auditors report that they successfully followed our procedures to arrive at the same results we
reported to Congress.

Accuracy and reliability both go into determining validity, but a valid measure is more than just
accurate and reliable. A valid performance measure, as the term "validity" is generally used in
social science, means that the measure represents that which it intends to measure. On that score
as well, we believe that our performance measures are valid. For example, one of our most
important indicators, the number of members enrolled in AmeriCorps, has been repeatedly
scrutinized by auditors to determine if the Trust data are accurate and reliable. The processes used
to create the measure, involving data collection, storage, and analysis systems, reasonably
represent the actual number of members enrolled in our programs around the country. In other
words, the measure is valid.

Finally, to the extent that for some performance indicators the evidence for validity is not as
strong as in the case of the AmeriCorps enrollment data, we refer to the explicit guidance from
the Office of Management and Budget to Executive agencies on this issue:
                                                                               APPENDIX IV



                Agencies are not required to develop an independent capacity for
                verifying or validating performance data received from, or based
                on, sources outside the agency. Data sources outside the agency
                should be identified in the plan. Available information from an
                outside source regarding the accuracy and reliability of its data
                should be collected, but need not be included in the plan. OMB
                Circular No. A-1 1 (2001). Section 220.12.

        Audit Recommendation: "Conduct a risk assessment of key performance indicators and
        accomplishment statistics and formulate a data validation process for key performance
        indicators and accomplishment statistics."

        Response: The Corporation does not concur with the recommendation.


Finding 4. Lack of guidance for data validation during site visits.

There is written guidance in the form of an established compliance monitoring protocol and
instrumentation that CNS State Offices have been utilizing for the past three years in conducting
on-site compliance monitoring of NSSC projects. It requires the review of key internal controls
over performance and accomplishments at the point of origin (project documentation). While not
every site visit to an NSSC project is for the specific purpose of conducting a compliance review,
the Corporation requires that CNS State Offices conduct an on site compliance review of every
NSSC projectevery two years.

Finding 5. Aguirre International.

a. Lack of formal compilation and reporting procedures and policies.

As noted by KPMG, the methods and procedures for creating an accomplishments review are
rigorous and extensive, evidence of the high standards that the Corporation requires of this
process. The procedures are fully detailed in the contract task plan. We know of no instances in
which the absence of a procedure manual has caused any diminution of quality in the
accomplishment collection and aggregation process.

        Audit Recommendation: "Formulate written procedures that include the identification of
        key controls for performance information compiled by contractors."

        Response: "We agree that written procedures would help to safeguard the integrity of the
        process in the future, and we will have such a document created."

b. Data collected for more than 500 accomplishments.

In accordance with our authorizing statutes and implementing regulations, AmeriCorps and
Senior Corps programs are designed to be responsive to locally determined needs and conditions.
The program organizers and sponsors at the local level set each program's goals and objectives.
This means that the range of AmeriCorps project accomplishments is as rich and varied as the
social and environmental landscape of America. Our accomplishment reporting system is an
attempt to capture and display for Congress and the American people this variety in a way that is
comprehensive and understandable without placing undue burden on the programs or the multiple
audiences for the accomplishment reports.
                                                A.15
                                                                                  APPENDIX IV




There are multiple purposes for the collection of the annual accomplishment reviews, the
Performance Report being only one of them. The accomplishments incorporated into the
Performance Plan are intended to illustrate particular aspects of the scope of Corporation-
supported service. The tables included in the annual performance report are not intended to be
exhaustive.

        Audit Recommendation: "Review all accomplishment statistics compiled by Aguirre
        International and reduce the number of accomplishment statistics collected by Aguirre
        International to those that will be reported."

        Response: The Corporation does not concur with this recommendation.

        Audit Recommendation: "Conduct a cost-benefit analysis with respect to the number of
        accomplishment statistics to be reported . . . and reallocate funding resources to other
        tasks . . . ."

        Response: The Corporation does not concur with this recommendation.


c. Lack of documented evidence of contractor oversight.

The absence of documentation of the oversight of this contract does not reflect an absence of
attention to its rigor and completeness, but rather the fact that the activities in question have been
in place for some time and are effective. We agree, however, that a more thorough
documentation of the Corporation's oversight would ensure continued high quality and we will
institute procedures to systematically document the oversight of accomplishments collection,
aggregation and reporting.

        Audit Recommendation: "Require, through policies and procedures, the Director of
        Evaluation to document visits to Aguirre International or any other contract and contract
        compliance review."

        Response: The Corporation concurs with the recommendation and will develop policies
        and procedures for the oversight of Evaluation contracts.


Finding 6. Broadly stated key performance indicators and accomplishment statistics that are not
           clearly defined.

See response to Finding l e above.

Finding 7. Lack of state office involvement in the performance reportingprocess.

With respect to this finding, the Corporation provides the following additional information and
clarification regarding the Corporation State Offices and their oversight of the National Senior
Service Corps programs.

The report finds that "The Corporation did not involve state offices, when appropriate, in the
performance statistic reporting process related to the programs they are responsible for -
                                                                                APPENDIX IV



AmeriCorps VISTA and National Senior Service Corps - because there were no policies and
procedures requiring such involvement in the reporting process"

The Corporation agrees that its State Offices are the most knowledgeable about projects in their
respective states, and the Senior Corps headquarters office relies on their expertise with and
knowledge of grantees for key information and data. With regard to the Senior Corps programs
and State Office involvement and oversight with key performance indicators, however, the above
statement in finding 7 is incorrect.

Data for a key performance indicator, "Programming for Impact and Outcome-Based
Assignments" are reported by Senior Corps grantees annually to Senior Corps headquarters.
Grantees use a one-page hard copy report (erroneously referred to in the finding as the "Progress
Report") that is signed by the Executive Director of the sponsor agency responsible for the Senior
Corps grant. The grantee agency sends an identical, duplicate copy directly to the respective
Corporation State Office, who reviews the data on a project-by-project basis. In addition, as
Senior Corps headquarters staff enter data in a central database for reporting, updated state
reports are provided to State Offices for review and input. Through this system of cross-
verification and communication, the Corporation is assured that the appropriate staff have access
to information, and can take a role in the overall accuracy. The written policies and procedures
that describe this process are found in the following Corporation documents:

                (a) Corporation Field Guidance 2000, National Senior Service Corps.

                (b) Corporation for National Service, National Senior Sewice Corps GPRA
                    Results Report and Instructions.

Other key Senior Corps performance indicators are reported by the Corporation using two data
sets compiled from sources available to and used by State Office and Service Center staff. These
are the ( 1 ) Project Profile and Volunteer Activity (PPVA) national data collection and (2) the
Grant Tracking Database. Updates and new information from State Offices and Service Centers
are entered into the databases to maintain accuracy. Grants Tracking is reconciled quarterly by
the Service Center Grants Officers.

The report also states that "Aguirre International compiled the accomplishment statistics of these
two programs without substantial involvement of the state offices. Aguirre International sent the
surveys directly to the projects or stations. State office involvement was limited to following up
with those projects or stations that did not respond to the survey.. . "

As a clarification, and as noted in previous sections of this response, the accomplishment
statistics collected and compiled by Aguirre International are not synonymous with "key
performance indicators."    Accomplishment statistics are designed to be illustrative of
accomplishments, and are used as highlights and examples.

Aguirre International was engaged as an independent contractor to implement and report on
accomplishment statistics. The activities performed by Aguirre are defined as evaluation
activities. As such, the role and involvement of all Corporation entities, including State Offices,
are constrained by statute.

Specifically, authorizing legislation for the Senior Corps programs, the Domestic Volunteer
Service Act (DVSA), Section 416 (a) states the following: "Evaluations shall be conducted by
persons not immediately involved in the administration of the program or project evaluated." In
                                               A. 17
                                                                                  APPENDIX IV



compliance with the legislation, Corporation State Offices activities were restricted to the
following:

        Review of all materials, such as correspondence and survey copies, sent to their Senior
        Corps grantees and volunteer stations;
        Status lists on participation; and
        Helping to ensure that their Senior Corps granteeslvolunteer stations understood the
        purpose of the evaluation activity, and completed and returned surveys and materials.

        Audit Recommendation: " . . . that state offices participate in the key performance
        indicators and accomplishment statistics compilation and verification process,
        particularly for the AmeriCorpsVISTA and National Senior Service programs. . ."

        Response: The Corporation already involves state offices in this process, to the extent
        permitted by law.

Finding 8. AmeriCorps - State and National.

a. Lack of distinction between reported levels of eflort,

As we have indicated elsewhere, the accomplishments review is not intended to be a measure of
scale at the level of precision suggested by this finding. To extend the example included in the
finding, "number of students tutored or mentored," the intensity (one time, twice per week, three
hours per month, one semester, etc.) of service provided to tutored students is determined by
program design, which is locally determined. Consequently, the Corporation would have to
establish standard units of measure and require extensive additional uniform record keeping of
the tens of thousands of service sites through the United States. Indeed, in 1995 we attempted
data collection of that magnitude, and concluded that it was counter-productive. While we
appreciate KPMG's desire for more specificity in the intensity of these services, we do not
believe that it is feasible or that the effort that would be required of grantees and the public is
justifiable. We would not characterize the results as we collect them as inaccurate, but rather at
an appropriate level of generality.

Furthermore, the kind of data distinctions advocated by the auditors is found, in the case of
tutoring, in the more rigorous (and costly) program evaluation study of AmeriCorps tutoring
efforts conducted by Abt Associates. That report specifically provides the number of students
tutored, the methods used for tutoring, and the intensity of the activity. In general, the specificity
in data requested by the auditors will be found in our program evaluation studies and reports.

        Audit Recommendation: "Clearly define how to capture and report statistics relating to
        accomplishments of the programs when the measures could be based on varying levels of
        effort for the activity performed."

        Response: The Corporation believes that the degree of definition now present is adequate
        given the level of accuracy sought in the accomplishment reporting process.

b. Projects were not advised of accomplishment statistics compilation requirements at the
   beginning of the project.

While we have no doubt that the Virginia State Commission reported to the auditors matters as
they perceived them, we must disagree with the finding. The collection of accomplishment data
                                                A.18
                                                                                 APPENDIX IV



has occurred throughout AmeriCorps*State and National every year since its inception in 1994.
The requirement that these data be collected is included in the AmeriCorps grant provisions, and
has been for several years. The accomplishment categories have been essentially stable since
1996. Indeed, in the year in question, programs that called to request an accomplishments form
before it was printed were told to use the previous year's form because the overlap between them
was so substantial. Although there has been minor modification to the form at times, these
changes have usually added categories of accomplishments when a particular accomplishment
occurs repeatedly in the "other" category.

We would also like to point out there are certain difficulties inherent in drawing a conclusion
from a sample of one. According to the information found in Appendix I1 on "Objectives, Scope,
and Methodology," the Virginia State Commission was the only State commission visited in the
course of the audit. Usually evidence drawn from such a sample is called an anecdote and not a
finding.

        Audit Recommendation: "Identify accomplishment measures to be reported by the
        AmeriCorps state offices . . . and advise state offices of the reporting requirements before
        beginning of the project."

        Response: We do not concur with the recommendation.

Finding 9. AmeriCorps - NCCC: Project service completion reports not signed.

In the case of the 27 project completion reports sampled at the Denver campus, the auditors
discovered that ten lacked the required signatures of the project sponsors. These signatures are an
important control on the accuracy of the project accomplishment data reported by NCCC. At the
conclusion of each AmeriCorps*NCCC project, the campus director and a representative of the
project sponsor in the community where the service occurred are to sign the report filed by the
project team. Unfortunately, at the time the reports in question were filed at the Denver campus
the staff was short four of seven members, which led to filing incomplete project reports. We
have investigated this finding. The Denver campus has now corrected this oversight.

        Audit Recommendation: ". . . that the Director make sure that the project service
        completion reports are signed and the project sponsor has certified the report."

        Res~onse: This is our current policy and the errant AmeriCorps*NCCC campus is now
        in compliance.

Finding 10. National Senior Service Corps: Incomplete presentation of data.

The report states that "the Corporation cannot verify that all National Senior Service Corps RSVP
stations were included in the survey because the Corporation does not believe the projects
provided a complete list of stations to Aguirre International for performance reporting surveys."

The Corporation would like to clarify that the accomplishment statistics gathered through the
Aguirre International process are not part of the annual key performance indicators for the Senior
Corps. Again, accomplishment reporting allows programs to quantify the contributions they are
making toward meeting critical community needs. These counts of service performed (e.g.,
community buildings rehabilitated, students taught, and neighborhood watches conducted) help
report the work of national service. Additionally, the Senior Corps key performance indicators
are not volunteer station dependent.
                                                A.19
                                                                                 APPENDIX IV



KPMG has misinterpreted the information it received about the sampling of RSVP
accomplishments with the result that Finding 10 is misleading. Uncertainties in the complete list
of RVSP stations did not prevent the selection of a sample that provided the Corporation with an
accurate reflection of the characteristics of the Retired and Senior Volunteer Program stations
nationally. The Corporation and Aguirre International recognized from the outset that obtaining a
census list of RSVP stations, some 70,000 in number, was unrealistic and unnecessary. In
contrast to the station-level sampling used for FGP and SCP, a two-stage sample was drawn for
RSVP. The first-stage sample was of projects, not stations. The universe of RSVP projects is
known and all projects were included in the sample. Using the 1999 Project Profiles and
Volunteer Activity database as the sampling frame, 250 projects were drawn from the universe of
752 projects, with the probability of selection proportional to the number of volunteers per
project.

Among the 250 projects selected are thousands of stations so a second-stage sample of stations
was drawn from among the 250 projects. Before drawing the station sample, considerable effort
was made by Aguirre International and Corporation staff to ensure that Aguirre had complete
station lists for all 250 projects. Accurate station lists were received from 234 projects (93.6%).
As the station lists were received from the projects, Aguirre International used a simple random
sampling procedure to select the stations that would complete the survey from within a project.
By drawing the sample in two stages, the primary sampling unit was projects, of which the
universe was known, not stations, and we believe that this method represented a sound and
reasonable statistical means of addressing the logical burden of the volume of RSVP stations.
The sampling issue that bears on the confidence of the resulting data is the failure of six percent
of those projects to provide station lists. That failure is statistically very different from the
conclusion of Finding 10 that "The Corporation cannot verify that all National Senior Service
Corps RSVP stations were included in the survey." A very high response rate was obtained from
the stations in the projects surveyed and those data were weighted to adjust for non-response.

        Audit Recommendation: " . . . [that] the Corporation improve its collection process for
        information regarding National Senior Service Corps RSVP stations in order to have a
        more accurate assessment of the total National Senior Corps RSVP stations and ensure a
        representative statistical sampling. If the RSVP station-related key performance
        indicators and accomplishment statistics are not reliable, the Corporation should indicate
        this condition with a footnote to the statistic with the Fiscal Year 2000 Performance
        Report."

        Response: The Corporation is confident that the accomplishments survey is a statistically
        accurate characterization of RSVP's service activities. The Corporation will adopt the
        recommendation that footnotes clarify the data source and methods i n the performance
        report.

Finding 1 1.    Learn and Serve America: Unreliable key performance indicators and
                accomplishment statistics.

Learn and Serve America staff did not tell the auditors that only 70 percent of grantees submitted
semi-annual progress reports. Rather, staff indicated that some reports, approximately 13 percent,
were unavailable at the time of the audit. Learn and Serve America staff did explain to the
auditors that the number of participants in the program was gathered from self-reports by
grantees. These self-reports are collected in semi-annual progress reports from grantees. One
                                                                               APPENDIX IV



should keep in mind that Learn and Serve America grants are low-risk. At the subgrantee level,
where most of the Corporation-funded service learning activity occurs, only very small amounts
of federal money is involved, somewhere between $500 and $25,000 annually.

       Audit Recommendation: ". . . that the Corporation reevaluate the need to present Learn
       and Serve key performance indicators in future performance reports, as they are
       unreliable. However, if upon evaluation, these indicators are presented in future reports,
       we recommend that the Corporation clearly indicate data accuracy limitations by
       inserting a footnote within the body of the report."

       Response: Learn and Serve America does not expect to be able to provide independently
       verifiable participant-level data for its programs. The cost to do so would be more than
       the cost of the program. We accept the audit recommendation that in future reports a
       footnote should appear on the same page indicating data accuracy limitations.



Endnotes
' Abt Associates. 200 1. ArneriCorps Tutoring and Student Reading Achievement. Final Report.
  Cambridge, MA.


cc:     Wendy Zenker, Chief Executive Officer (Acting)
        Gary Kowalczyk, Director, Planning and Program Integration
                                                                            APPENDIX IV
                   KPMG COMMENTS ON SPECIFIC ITEMS
                  NOTED IN THE CORPORATION'S RESPONSE


CNS Response: On page 1 of its response (Appendix 4, page A.8), the Corporation
states, "Overall, the report's characterization that our data are accurate, that our
procedures are replicable.. ..are findings that we are pleased to share with Congress and
the American people." Additionally, on page 7 (page A. 14 of this report), in commenting
on Finding 3, the Corporation states, The audit report finds that the Corporation's
                                      "

performance indicators are 'reasonably accurate."'

KPMG Comment: Readers of this audit report may be misled if they may infer that all
key indicators and accomplishment statistics are reasonably accurate. Our conclusion
that data is "accurate" or "reasonably accurate" relates only to our assessment of the
database controls and their effect on the accuracy of the performance information
contained within them. In contrast, with the exception of the VISTA key performance
indicator, we did not test the control over the database input, much of which was
compiled from various sources outside the Corporation. Therefore, we cannot determine
the accuracy or completeness of the raw data used to compile the performance statistics.
In addition, we cannot extrapolate the results of our procedures to the rest of the other 38
indicators, for the following reasons:

       To the extent the source of the other 38 key indicators was a database, our review
       of data queries and the compilation process was limited to the 11 key indicators
       we tested (1 of the 12 key indicators we tested, the Learn and Serve America
       indicator, was not generated from a database); and

       To the extent the source of the key indicator was not a database, (such as periodic
       progress reports received by the Corporation and reports issued by another entity),
       we did not review the process and did not review the Corporation's supporting
       documentation.

Accordingly, we can only conclude on the 12 key indicators tested.



CNS Response: On page 4 of its response (Appendix IV, page A. 1l), regarding Finding
1.a., the Corporation describes its current guidance for validating performance
information. The Corporation acknowledges that the data underlying performance
information included in its Performance Report may or may not be validated, by stating:
"There is, however not a strict correlation between the performance indicators and
accomplishment statistics gathered through Aguirre contractors and those checked and
validated through the current iteration of the NSSC monitoring instrument."

KPMG Comment: The Corporation's annual validation of performance data at the state
office should include those statistics that will be reported in the Performance Report.
                                                                           APPENDIX IV
                   KPMG COMMENTS ON SPECIFIC ITEMS
                  NOTED IN THE CORPORATION'S RESPONSE

CNS Response: Regarding Finding 1.b. on page 5 of its response (Appendix IV, page
A. 12), the Corporation further discusses its compliance monitoring system, stating that
the CNS State Office staff must document their findings with respect to project
accomplishments and performance indicators.

KPMG Comment: The Corporation's response does not address the issue we raised
concerning the lack of state office involvement in the compilation review and reporting
of performance data. State offices should participate in the key performance indicators
and accomplishment statistics compilation and verification process, particularly for the
ArneriCorpsVISTA and National Senior Service Corps programs, as they are the most
knowledgeable of the programs in their respective states and have direct interaction with
the projects or stations.



CNS Response: In response to finding 1.d, on page 6 of its response (Appendix IV, page
A. 13) related to contractor oversight documentation, the Corporation states, "The
auditors received evidence that the Corporation provided the data sets for mailing the
survey forms. . .."

KPMG Comment: KPMG was provided with the survey forms and the copies of draft
letters sent to the grantees. This does not meet the requirement of contractor oversight. As
noted in the report, contractor oversight was limited to visits to Aguirre International and
contract compliance review by the Director of Evaluation and respective task managers.
However, KPMG was not provided with any documentation of site visits or contract
compliance review for the AmeriCorps State and National programs.



CNS Response: In responding to finding 1.e, on page 6 of its response (Appendix IV,
page A. 13), the Corporation has provided extensive discussion on "broadly stated key
performance indicators and accomplishment statistics that are not clearly defined." The
Corporation states, "the categories [we report] strike a reasonable balance between
excessive generality and burdensome specificity." It further states that "Although
phrases like 'the elderly', 'at-risk youth' or 'veterans' have not been narrowly defined,
we feel confident that our public readership has a shared understanding of what those
phrases mean."

KPMG Comment: KPMG agrees that there should be a reasonable balance between
generality and specificity, which the Corporation may consider discussing in the
Performance Report. However, we believe that certain accomplishment statistics, as
discussed in this report, need specificity to prevent misleading the readers and to provide
reasonable assurance that the data are reported and compiled consistently.
                                                                             APPENDIX IV
                   KPMG COMMENTS ON SPECIFIC ITEMS
                  NOTED IN THE CORPORATION'S RESPONSE

CNS Response: In its response to finding 2, on page 7 of its response (Appendix IV,
page A. 14), the Corporation does not concur with implementing data certification for
accomplishment statistics.

KPMG Comment: KPMG believes that a certification by the respective program
director signifies that the accomplishments statistics have been reviewed and deemed
accurate and reliable. The program director who is responsible for administering the
Corporation's programs should be held accountable for the reliability of accomplishment
data reported in the Performance Report, regardless of whether the data was derived
internally or externally.



CNS Res~onse:On page 8 of its response (Appendix IV, page A.14), the Corporation
does not concur with the audit recommendation in finding 3, which proposes the
Corporation conduct a risk assessment of key performance indicators and
accomplishment statistics and formulate an effective data validation process.

KPMG Comment: A risk assessment will assist the Corporation in identifying key
performance indicators and accomplishment statistics that have the most risk of being
inaccurately compiled, due to either high inherent risk, high control risk, or both. The
assessment will also assist the Corporation in identifying which programs should receive
the most focus, as we understand the Corporation's resources to validate data are limited.
To the extent key performance indicators and accomplishment statistics are compiled by
the Corporation internally or through a contractor, the level of data validation should be
consistent with OMB Circular No. A-1 1, Section 220.12. To the extent data is obtained
externally, data sources should be identified and a discussion on data reliability provided,
or a disclaimer issued on data reliability.



CNS Response: On page 8 of its response (Appendix IV, page A. 15), the Corporation
describes its current guidance on site visits to its Senior Corps projects and states, "It
requires the review of key internal controls over performance and accomplishments at the
point of origin (project documentation)."

KPMG Comment: The Corporation's site visit guidance we reviewed does not require
state office or headquarters staff to examine internal controls over performance statistic
compilations or to validate data (i.e., verify data at the point of origin). Accordingly, the
Corporation's review of NSSC projects, conducted every two years, does not require a
review of internal controls over performance statistic compilation or validation of data at
the point of origin. We were not provided any site visit documentation confirming the
review of internal controls over performance statistic compilations or the validation of
internal controls over performance statistic compilation.
                                                                           APPENDIX IV
                   KPMG COMMENTS ON SPECIFIC ITEMS
                  NOTED IN THE CORPORATION'S RESPONSE



CNS Response: On page 8 of its response (Appendix IV, page A. 15), the Corporation
does not concur with reviewing all accomplishment statistics collected by Aguirre
International. Additionally, the Corporation does not concur with conducting a cost
benefit analysis.

KPMG Comment: We understand that the data compiled by Aguirre International is
used for multiple purposes. Review of other uses of the data was not part of the audit
scope. However, sound management practices suggest a periodic comparison of
performance information's overall utility to its cost to compile and validate. Conducting
a cost benefit analysis ensures that management is addressing changing information
needs and weighing those needs against available resources.



CNS Response: On its response to finding 7, on page 10 of its response (Appendix IV,
page A. 17) relating to the lack of state office involvement in the performance reporting
process, the Corporation has referred to the two documents in support of part of its
written policies and procedures:

       (a) Corporation Field Guidance 2000, National Senior Service Corps

       (b) Corporation for National Service, National Senior Service Corps GPRA
       Results Report and Instructions

KPMG Comment: Neither of these documents was provided to the audit team by the
GPRA Coordinator or anyone in the Corporation, nor was their existence mentioned
during field visits to the CNS state offices.



CNS Response: On page 11 of its response (Appendix IV page A. 18) addressing finding
7 on the performance reporting process, the Corporation states that it involves state
offices in the process to the extent permitted by statute.

KPMG Comment: We do not believe that the statute precludes the state offices from
reviewing accomplishment data on programs they are accountable for, as a control over
the accuracy of the data used by management and reported to the public.



CNS Response: In its response to finding 8.a., on the lack of distinction between
reported levels of effort, the Corporation explained that it spent considerable resources on
evaluation studies conducted by Abt Associates, which provided the distinction between
reported levels of effort associated with student tutoring. (Appendix IV, page A. 18)
                                                                          APPENDIX IV
                   KPMG COMMENTS ON SPECIFIC ITEMS
                  NOTED IN THE CORPORATION'S RESPONSE

KPMG Comment: We believe that to the extent the level of specificity is available and
appropriate, as in the case of data compiled by Abt Associates, it should be provided in
the Performance Report. Otherwise, the readers should be alerted to the limitation of the
data, such as differing definitions of levels of effort.



CNS Response: On page 12 of CNS' response (Appendix IV, page A. 18), the
Corporation does not concur with finding 8.b., which recommends advising state offices
of the reporting requirements before the project starts. Additionally, information
provided by the Virginia State Commission was referred to as an anecdote.


KPMG Comment: It is our understanding that the Corporation does not provide
reporting requirements before the project starts. Accordingly, the response would be the
same whether we asked one state commission or all 48 state commissions. It would seem
only appropriate that projects are informed in the beginning of their reporting
responsibilities.



CNS Response: On page 13 of its response (Appendix IV, page A. 19), the Corporation
addresses finding 10 regarding the incomplete presentation of NSSC data. The
Corporation indicated that KPMG misinterpreted the information it received about the
sampling of RSVP accomplishments. The Corporation states, "Uncertainties in the
complete list of RSVP stations did not prevent the selection of a sample that provided the
Corporation with an accurate reflection of the characteristics of the Retired and Senior
Volunteer Program stations nationally."

KPMG Comment: Finding 10 was based on documentation provided by the
Corporation. None of the documents provided clearly illustrated the details of the CNS
two-stage sampling methodology. Additionally, none of the documents stated or
demonstrated evidence that 93.6% of the 250 sampled projects provided a complete
listing of stations. Without the detailed CNS sampling documents describing this critical
information, KPMG was unable to assess the validity of the CNS two-stage sampling
methodology and resolve the issue surrounding the completeness of the station listing.
